                                            o. 

Department of Health and Human 
                             Servces
                OFFICE OF

           INSPECTOR GENERA





            EFFECT OF ERISA ON STATE

               INSURANCE LAWS:


      MANAGEMENT ADVISORY REPORT





                                   VlcrO


                                           Richard Po Kusserow
                                           INSPECfOR GENERA

                                               AUGUST
                                                  ,.   ,...     . ".




                          OFFICE OF INSPECfOR GENRA

 The mission of the Offce of Inspector General (OIG), as mandated by Public Law 95-452
 as amended , is to protect the integrty of the Department of Health and Human Servce
 (RRS) programs as well as the health and welfare of beneficiaries served by those programs.
                      is carried out through a nationwide network of audits , investigations
 This statutory mission
 and inspections conducted by three OIG operating components: the Offce of Audit
 Servce , the Offce of Investigations , and the Offce of Evaluation and Inpections. The
 OIG also informs the Secretary of HHS of program , and management problems , and
 recommends courses to correct them.

                            OFFCE OF AUDIT SERVICE
The OIG' s Offce of Audit Servces (OAS) provides all auditing servce for HHS
                                                                                , either by
conducting audits with its own audit resource or by overseeing audit work done by others.
Audits examine the performance of RRS programs and/or its
                                                                grantee and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of RRS programs and operations in order to reduce waste , abuse , and
mismanagement and to promote economy and effciency throughout the Department.

                            OFFICE OF INTIGATIONS
The OIG' s Offce of Investigations (01) conducts criminal , civil , and admiistrative
investigations of allegations of wrongdoing in RRS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative effort of 01 lead to criminal convictions
administrative sanctions , or civil money penalties. The 01
                                                            also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid
program.

                 OFFICE OF EVALUATION AN INSPECTONS
The OIG' s Office of Evaluation and Inspections (OEI) conducts short- term management and
program evaluations (called inspections) that focus on issues of concern to the Department
the Congress ,   and the public. The findings and recommendations contained in these
inspection reports generate rapid , accurate , and up- to- date information on the effciency,
vulnerability, and effectiveness of departmental programs.
Department of Health and Human Servces

                    OFFICE
   INSPECTOR GENERAL





   EFFECT OF ERISA ON STATE
        INSURANCE            LAWS:

  MANAGEMENT ADVISORY REPORT




                       Richard P. Kusserow
                       INSPECfOR GENERA

              d3a          OEI- 12- 91- 01420
           TABLE OF CONTENTS
EXECUTIVE SUMMARY

INTRODUCTION

FINDINGS

RECOMMENDATIONS
                                                                                      , "




              EXECUTIVE SUMMARY

PUROSE
This Management Advisory Report (MA)                                Employee
                                                              describes the effect of the
Retirement Income Security Act (ERISA) on State laws prohibiting discrimination in
insurance plan coverage on the basis of place of residence.



BACKGROUN
In 1990 , the Office of Inspector General (OIG) released the report Coordination of
Third Party Liability Information between Child Support Enforcement and Medicaid.
As part of this study, the OIG conducted intervews with CSE agency staff to
document the problems they face in identifying and pursuing medical support. One
problem identified is that some private insurers limit coverage of a policyholder
dependents to those currently residing in the policyholder s residence. This has the
effect of denying medical support for AFDC children who no longer live with their
absent parent. We recommended that the Family Support Administration (now the
Administration for Children and Families (ACF)) and the Health Care Financing
Administration (HCF A) require States to implement legislation to prohibit
discrimination in insurance plans on the basis of place of residence. This legislative
proposal is currently being drafted.

A potential loophole to such a strategy was brought to our attention in interviews
with State CSE directors during a subsequent study. Some directors indicated that
insurance plans covered under the Employee Retirement Income Security Act of
1974 (ERISA) (29 U.        c. 9 1001 

                                                  ll)
                                         are exempt from state regulation of
insurance. This MAR presents the results of our research into this issue.

FININGS
ERISA prevents States from assung that AFDC dependnt chilren are covered uner
their absent parents' group health insance    The Office of General Counsel has
                                                           plans.


informed us that State                          not apply to employee benefit
                           laws regulating insurance wil

plans which are self- insured.

The pool of self-   iners have grown considerably since passage of ERISA, increasing the
signifcance of this gap in coverage.

RECOMMNDATION

The HCFA and ACF shoul address ERISA preemption problems when drafting a
legi'llative proposal to require States to prohibit discrimintion in inance plans on        the
basis of place of residence.
                                 , "                                                   , "




                               INTRODUCTION

PUROSE
This Management Advisory Report (MA) describes the effect of the Employee
Retirement Income Security Act (ERISA) on State laws prohibiting discrimination in
insurance plan coverage on the basis of place of residence.



BACKGROUN
        the Office of Inspector General (OIG) released the report Coordination of
In 1990 ,
Third Party Liability Information between Child Support Enforcement and
Medicaid. "l This study assessed whether child support enforcement (CSE) agencies
were indentifying absent parents with children on Aid to Families with Dependent
Children (AFDC) who had group health insurance available to them , whether their
AFDC-supported children were enrolled in the plan , and whether this information
was transmitted to Medicaid in order to avoid payment for claims that should have
been covered by private insurance. The OIG report documents that the Medicaid
program would save $32 million annually if CSE agencies adequately detect and
pursue available group health insurance.

As part of this study, the OIG conducted interviews with CSE agency staff to
document the problems they face in identifying and pursuing medical support. One
problem identified by a number of these respondents concerned limitations in private
insurance coverage. Some private insurers limit coverage of a policyholder
dependents to those currently residing in the policyholder s residence. This                       has the
effect of denying medical support for AFDC children who no longer live with their
absent parent. This limitation in coverage costs the Federal government at least
milion annually. We recommended that the Family Support Administration (now
the Administration for Children and Families (ACF)) and the Health Care Financing
Administration (HCF A) pursue a legislative remedy to require States , as a condition
of receiving matching funds under title IV , to implement legislation to prohibit
discrimination in insurance plans on the basis of place of residence. This                       legislative
proposal is currently being drafted.

A potential loophole to such a legislative strategy was subsequently brought to our
attention through interviews with State CSE directors during our study, " State Child
Support Enforcement Criteria for Targeting Medical Support " which was released in




     IOffice of Inspector General Coordination of Third Party Liability Information between Child Support

 Enforcement and Medicaid " OEI- 07-88- 00860 , January 199.

                                 , "




draft to HCF A and ACF on May 20 , 1991. Some directors indicated that insurance
plans covered under the Employee Retirement Income Security Act of 1974 (ERISA)
(29 U. c. 9 1001 
       ) are exempt from state regulation of insurance , and could
therefore continue to discriminate against dependents on the basis of place
residence despite state legislation generally prohibiting this practice. This
presents the results of our research into this issue.




    20ffce of Inspector General State Child Support Enforcement Criteria for Targeting Medical Support
(draft), OEI- 07- 90-O120 , May 1991.
                                     FINDINGS

ERISA prevents States from assug that AFDC dependnt chilen               are covered    uner
their absent parents' group health inance plans.

      ERISA establishes Federal requirements for employee benefit plans , including
      health insurance plans.

ERISA is a comprehensive Federal law which sets uniform standards for employee
benefit plans. Employee benefit plans are pension plans and welfare plans , including
health insurance plans. Businesses which provide health insurance to their employees
are subject to ERISA requirements , regardless of whether they contract with a
second party to provide the coverage and assume the risk or whether they self-
insure and assume the risk themselves.

ERISA establishes requirements for the disclosure of certain information and the
operation and management of such plans. ERISA concerns itself solely with
administrative matters; it does not prescribe the content of plans and the nature of
benefits that must be provided.

       Certain ERISA plans are exempt from state laws           regulating insurance.


Generally, the provisions of ERISA supercede state law. However , ERISA provides
that it should not be construed to exempt anyone " from any law of any State which
regulates insurance. . . " while at the same time stating that no employee benefit plan
should be considered an insurance company for the purposes of any State law which
regulates insurance companies or insurance contracts. As a result of this rather
confusing language , which appears to give with one hand what it takes away with
another , much litigation has taken place over the breadth of ERISA' s preemptive
power.

In response to our inquiry about the effect of ERISA on State laws such as those
supported by the OIG in our 1990 report , the Office of General Counsel (OGC) has
informed us that State  laws regulating insurance willnot apply to employee benefit
plans which are self- insured. However , since such laws apply to insurance
companies , these laws wil effectively apply to ERISA plans which purchase outside
insurance policies to provide benefits to the plan       participants.


As a result , State laws which prohibit insurers from limiting dependent coverage on
the basis of place of residence would have no force for employers who self- insure.
For those businesses , coverage may be legally limited to dependents living with the
covered employee , and State law generally prohibiting this practice would have no
effect.
         ...                        , "




Th
     pol of self- iners have grown considerably sice pasage of ERISA, inreasng the
significance of this gap in coverage.

Self- insurers constitute a large and growing segment of the business community. The
large majority of Fortune 500 companies are self- insured. In 1985 , almost half of
firms with 100 employees or more were self- insured , doubling the figure from four
years earlier. Since ,    as discussed above , State law prohibiting discrimination in
coverage on the basis of place of residence would not reach ERISA plans which are
self- insured , a large part of the coverage problem identified in the 1990 OIG report
unresolved.


Th   problems posed by ERISA for the Federal and              State governments are serius          and
deserve furher consideration.

A recent report by the U. S. General Accounting Office found that " States ' limited
authority over ERISA plans does not allow them to prohibit these plans from certain
actions to avoid payments for (Medicaid) recipients ' covered costS. "3 ERISA poses
serious problems for States trying to mandate employer benefits or undertake other
initiatives to improve health care access:

          ERISA preempts state attempts to apply minimum benefit laws to
        self- insured plans. Self- insured plans may thus offer less
        comprehensive , and less expensive , health benefit plans. ERISA also
         relieves self- insured plans of the financial burden of contributing to
         state risk pools along with other insurers , and from the regulatory
         burden of other state insurance requirements. Finally, self- insured
         companies are not subject to state insurance premium taxes....

         Indirect state regulation cannot be effective in this mixed market.
         Benefit mandates are realistically limited: the greater the state
         mandates , the greater the incentive for employers to self- insure.
         Attempts to raise funds for access initiatives from the health insurance
         market are also frustrated. ERISA preempts state attempts to directly
         tax employee benefit plans. The   statute has prevented attempts to
         broaden the funding of state  high-risk pools--self- insured employers
         have remained free of liability for loss assessment. Similarly, proposals
         to provide risk pools for small employers at the state level have been
         hampered by the inability of states to spread potential losses from such



     3U. S. General Accounting Offce Medicaid: Legislation Needed to Improve Collections from Private

 Insurers " GAOIHRD- 91- , November , 1990.

       programs across the entire insurance market , including self- insured
       employers.

Staff of HCF A and ACF have previously indicated that they are aware of the
problems posed by ERISA and Federal preemption of State laws mandating health
care coverage for children supported by absent parents. As more and more
businesses self- insure , in part to insulate themselves from state laws regulating
insurance , the exposure for the Medicaid program in financing health care for
employees and their children grows. This topic has also been explored in various
forums addressing obstacles to medical support for children of absent parents.




    -IMary Anne Bobinski, " Unhealthy Federalism: Barriers to Increasing Health Care Access for the Uninsured
  c. Davis Law Review (Volume 24 , Number 2 , Wimer 1990).
                    RECOMMENDATIONS

Th   HCFA and ACF shoul addres ERISA preemptin problems when draftg a
legilative propoal to requie States to prohibit discriintin in inance plans on   the
basis of place of resnce.

In 1986 ,Congress amended ERISA to provide that certain State laws regulating
insurance are not preempted by ERISA. These State laws prohibit employee benefit
plans trom including any provision which limits coverage for an individual who would
otherwise be covered by the plan , simply because that individual is eligible for
Medicaid. Such State laws ensure that Medicaid is the payor of last resort. Thus
precedent exists for a legislative remedy to avoid ERISA preemption problems. The
HCFA and ACF may wish to consider this approach as they draft proposed
legislative language.
